INS-O-01-02




  INSPECTION                      INSPECTION OF SELECTED
                               COORDINATION ACTIVITIES BY THE
    REPORT                        DEPARMENT OF ENERGY’S
                                 OFFICE OF TRANSPORTATION
                                        SAFEGUARDS




                                         MARCH 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                              U.S. DEPARTMENT OF ENERGY
                                    Washington, DC 20585

                                         March 13, 2001



MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:          Sandra L. Schneider /s/
               Assistant Inspector General for Inspections
               Office of Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Selected Coordination Activities by
               the Department of Energy’s Office of Transportation Safeguards” (INS-O-01-02)

BACKGROUND

The Department of Energy’s Office of Transportation Safeguards (OTS) maintains a liaison
program to communicate with State, Tribal, and local officials in the event of an accident or
terrorist attack involving an OTS shipment of nuclear weapons, nuclear weapons components, or
special nuclear materials (nuclear shipment). The purpose of the liaison program is to, among
other things, ensure that officials know what actions to take in response to a request for
assistance from OTS.

RESULTS OF INSPECTION

OTS officials have recently taken steps to improve liaison with State, Tribal, and local officials.
However, we determined that more timely and effective actions are needed by OTS to ensure the
potential benefits from these improvements are fully achieved.

Although OTS assigned liaison responsibilities to three individuals in July 2000, representatives of
three States from the selected sample of six States that we contacted in November 2000 told us that
they had no recent contact with OTS. Also, in October 2000, OTS established a program to augment
its liaison activities by using OTS Federal Agent volunteers to educate law enforcement officials
“regarding OTS processes for shipment safety and in the event of a shipment incident.” We learned,
however, that liaison activities by these OTS Federal Agents would not begin until October 2001.

Our review of training documents disclosed that OTS had conducted only one joint training exercise
with State and local law enforcement agencies since 1995. Our review also disclosed that during the
period September 1994 to June 2000, personnel from 11 State and local law enforcement agencies
participated in in-service training exercises with OTS personnel. Four of the 11 agencies attended
training during January to June 2000. In the years between 1994 and 2000, only seven agencies
participated in in-service training exercises with OTS.

In view of the sensitive nature of the nuclear shipments, effective coordination with State, Tribal,
and local officials is essential to ensure the safety and security of the shipments and to avoid
potential misunderstandings between law enforcement officials and armed OTS Federal Agents
in the event of an unanticipated encounter. Therefore, we recommended actions to improve
coordination and communication between OTS and State representatives to assure all parties are
aware of their respective roles and responsibilities in the event of an accident or terrorist attack
involving an OTS nuclear shipment. Management concurred with our recommendations and
described corrective actions to address our concerns.

Attachment

cc: Administrator, National Nuclear Security Administration
    Chief of Defense Nuclear Security
    Manager, Office of Transportation Safeguards
    Team Leader, Audit Liaison Team (CR-2)
INSPECTION OF SELECTED COORDINATION ACTIVITIES BY
THE DEPARTMENT OF ENERGY’S OFFICE OF
TRANSPORTATION SAFEGUARDS


TABLE OF
CONTENTS



               Overview

               Introduction and Objective………………………………… 1

               Observations and Conclusions……………………………   1


               Details Of Finding

               Recent Actions to Improve
               OTS Liaison Activities……………………………………… 2

               Results of Selected Sample……………………………….   2

               In-Service and Joint
               Training Exercises….………………………………………       3

               Status of Augmentation
               Initiative……………………………………………………… 4


               Recommendations………………………………………..          4


               Management Comments………………………………… 5


               Inspector Comments……………………………………..        5


               Appendix

               A. Scope and Methodology……………………………….. 6
Overview
INTRODUCTION      Since 1947, the Department of Energy (Department) and its
AND OBJECTIVE     predecessor agencies have moved nuclear weapons, nuclear
                  weapons components, and special nuclear materials using
                  commercial and Government transportation. In the late 1960’s,
                  worldwide terrorism and acts of violence prompted a review of
                  procedures for safeguarding these materials. In 1975, the safe and
                  secure movement of these materials was made a total Federal
                  operation with the establishment of the Transportation Safeguards
                  Division, now the Office of Transportation Safeguards (OTS), at
                  the Department’s Albuquerque Operations Office.

                  OTS maintains a liaison program to communicate with State, Tribal,
                  and local law enforcement and public safety officials in the event of an
                  unusual occurrence or emergency involving a shipment of nuclear
                  weapons, nuclear weapons components, or special nuclear materials
                  (nuclear shipment). The purpose of the liaison program is to inform
                  these officials about the OTS mission and goals; to ensure the officials
                  know how to recognize a nuclear shipment; and to ensure the officials
                  know what actions to take in response to a request for assistance in the
                  event of an accident or terrorist attack involving a nuclear shipment.
                  In view of the sensitive nature of the nuclear shipments, which are
                  protected by armed OTS Federal Agents, effective coordination with
                  State, Tribal, and local officials is essential.

                  The purpose of our inspection was to review selected coordination
                  activities conducted by OTS. Our specific objective was to determine
                  the adequacy of actions by OTS to ensure coordination with State,
                  Tribal, and local agencies in the event of an accident or incident
                  involving a nuclear shipment.

OBSERVATIONS      OTS officials have recently taken steps to improve liaison with
AND CONCLUSIONS   State, Tribal, and local officials. However, we determined that
                  more timely and effective actions are needed by OTS to ensure the
                  potential benefits from these improvements are fully achieved.




Page 1                                                                    Overview
Details of Finding
                                     We found that OTS has taken steps to implement needed
                                     improvements in communication and coordination with State, Tribal,
                                     and local officials in the event of an unusual occurrence or emergency
                                     involving OTS nuclear shipments. However, more timely and
                                     effective actions are required to ensure the potential benefits of these
                                     steps will be achieved.

                                     OTS officials said that there are no formal agreements between OTS
                                     and State, Tribal or local authorities that set forth the type and scope of
                                     the communications and coordination that should occur with regard to
                                     OTS shipments. The OTS officials described their liaison duties as
                                     including, among other things, sending annual contact letters to the
                                     governors of the contiguous 48 States explaining OTS’ operation and
                                     assuring assistance in the event of an emergency, providing briefings
                                     for county and city officials as requested, establishing contact with law
                                     enforcement agencies, scheduling briefings for State police
                                     organizations, and producing and distributing a law enforcement video
                                     and other materials explaining OTS’ operations. We were told that the
                                     contact letter also requests the governors to provide law enforcement,
                                     emergency management, and/or other pertinent points of contact. OTS
                                     officials said that coordination with Tribal and local authorities is
                                     through the State points of contact. They also said that OTS
                                     periodically conducts joint training exercises and in-service training
                                     with State law enforcement personnel. 1

Recent Actions to                    We noted that since July 2000, OTS has initiated actions to
Improve OTS Liaison                  improve liaison with State, Tribal and local officials. We were
Activities                           told that prior to July 2000 only one person had conducted liaison
                                     between OTS and State, Tribal and local authorities. According to
                                     an OTS official, since July 2000, three individuals have been
                                     assigned liaison responsibilities. He also said that in October
                                     2000, OTS established a program to augment the OTS liaison
                                     program by using OTS Federal Agent volunteers to educate local
                                     law enforcement officials “regarding OTS processes for shipment
                                     safety and in the event of a shipment incident.” The OTS official
                                     told us that as part of his OTS liaison duties he recently traveled to
                                     States in the upper Northwest and provided briefings to 22
                                     different State and local law enforcement entities.

Results of                           In November 2000, we contacted representatives from a selected
Selected Sample                      sample of six States to discuss their relationships with OTS. We
                                     selected the representatives from a list of State contacts provided to
                                     OTS by the governors’ offices of the respective States. During our

1
    In-service training consists primarily of State and local law enforcement officials training with OTS personnel at
    an OTS training facility. Joint training exercises are usually conducted by OTS personnel at a State location and
    may involve State or local law enforcement, emergency response, and other personnel.


Page 2                                                                                       Details of Finding
                       discussions with the State representatives, we verified that the State
                       emergency contact telephone numbers provided to us by OTS were the
                       correct contact numbers to be used by OTS personnel for requesting
                       emergency assistance in the six States in our sample.

                       The representatives of the six States in our sample described the
                       coordination that occurred between their respective States and OTS
                       from approximately 1994 to 2000. Information provided by the
                       representatives indicated there had been little recent contact between
                       OTS and some of the States. Each of the representatives said that at
                       sometime in the past his State had received a briefing, videotape,
                       and/or letter from OTS. One representative said that his State had
                       recently trained with OTS personnel, while another said his State had
                       recently declined an offer to train with OTS. Representatives from
                       three of the four remaining States in our sample, however, said that
                       their States had no recent contact with OTS. The representative of the
                       fourth State had concerns about the coordination of a recent briefing
                       by OTS.

                       Specifically, a representative from one of the four States said the
                       last contact his State had with OTS was a briefing five or six years
                       ago. He said that most individuals that attended that briefing have
                       since retired. A representative from a second State said that his
                       State had received substantive training from OTS until two years
                       ago, but has had no contact since. He also described an incident
                       that occurred about a year ago when an OTS vehicle was involved
                       in a “fender bender.” He said that OTS did not notify his State of
                       the incident at the time, and the OTS driver was reluctant to give
                       any information to the law enforcement officer that arrived on the
                       scene of the accident. He said that he had a difficult time
                       determining ownership of the vehicle, and that when he did, he had
                       difficulty contacting OTS officials to obtain information about the
                       incident. A representative from a third State said that the only
                       contact with OTS in the last four years was receipt of a training
                       video about two or three years ago. A representative of a fourth
                       State said that communication with OTS has been “hit or miss.”
                       He said that although OTS recently provided a briefing to State
                       officials, he was concerned that OTS officials did not adequately
                       coordinate the briefing to ensure the “right people” from the State
                       were in attendance.

In-Service and Joint   Our review of training documents provided by OTS for in-service
Training Exercises     training and joint training exercises disclosed the most recent
                       training exercises by OTS with State or local law enforcement
                       agencies were conducted during January to June 2000. We learned
                       that between 1987 and 1999, OTS conducted 14 joint training



Page 3                                                               Details of Finding
                  exercises with State and local law enforcement agencies and, in
                  some cases, members of the Federal Bureau of Investigation.
                  According to the training documents, the most recent joint training
                  exercise was conducted in 1999. However, the documents also
                  showed that prior to the 1999 exercise, the latest joint training
                  exercise had been conducted in 1995.

                  Regarding in-service training exercises, we observed that during
                  the period September 1994 to June 2000, law enforcement
                  personnel from 11 State and local agencies participated in
                  exercises with OTS personnel. Personnel from four of the 11 State
                  and local law enforcement agencies participated in the in-service
                  exercises conducted during January to June 2000.

Status of         We also reviewed the status of the October 2000 initiative to
Augmentation      utilize OTS Federal Agents to augment OTS liaison activities. In
Initiative        January 2001, an OTS official told us that, as of that time, no OTS
                  Federal Agents had been assigned the additional duties of supporting
                  the liaison mission. He said that funding for training of the OTS
                  Federal Agents had been received in the last fiscal year, and the OTS
                  Federal Agents should be in place by October 2001. He also said that
                  the OTS Federal Agents will initially conduct liaison with law
                  enforcement entities along OTS’ primary transportation routes. After
                  those entities are contacted, OTS will “branch out” to contact law
                  enforcement entities outside of OTS’ primary routes. He said that the
                  OTS Federal Agents will be expected to make two contacts per month
                  with law enforcement entities.

                  As discussed above, OTS officials have recently taken steps to
                  improve liaison with State, Tribal, and local officials. However,
                  we determined that more timely and effective actions are needed
                  by OTS to ensure the potential benefits from these improvements
                  are fully achieved.

RECOMMENDATIONS   We recommend that the Manager, Albuquerque Operations Office:

                  1. Take appropriate action to ensure that OTS officials
                     appropriately implement improvements to their liaison program
                     to assure timely and effective coordination and communication
                     with State representatives and to assure all parties are aware of
                     their respective roles and responsibilities concerning OTS
                     nuclear shipments.

                  2. Ensure that OTS officials contact State representatives on a
                     periodic basis to obtain feedback on the adequacy of OTS liaison
                     activities and to obtain suggestions on possible improvements.



Page 4                                                         Recommendations
MANAGEMENT   In comments dated March 6, 2001, the Manager, OTS, concurred
COMMENTS     with our recommendations. Regarding Recommendation 1, he stated
             that by June 1, 2001, OTS will contact the State Police Headquarters
             and Emergency Management of the respective 48 contiguous States
             and provide them an OTS orientation video and a letter explaining the
             mission of OTS. OTS will request further dialog if the organizations
             are interested in a formal presentation. He stated that the jurisdictions
             along the OTS high traffic corridors will be the primary focus for a
             briefing, which will outline the respective roles and responsibilities
             concerning OTS shipments. He also stated that OTS participates in
             numerous professional organizations and conferences to ensure
             distribution of pertinent OTS information.

             Regarding Recommendation 2, he said that by June 1, 2001, OTS
             will send a letter to State representatives explaining the OTS
             mission and will request how often the State representatives would
             like to be contacted in reference to liaison activities. The letter
             will also request any suggestions on possible improvements in
             liaison between OTS and the State representatives.

INSPECTOR    The corrective actions by management are responsive to our
COMMENTS     recommendations.




Page 5                                  Management/Inspector Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review during the
METHODOLOGY   period September 2000 to January 2001 at Department of Energy
              (DOE) Headquarters and at the Office of Transportation
              Safeguards (OTS), National Nuclear Security Administration,
              Albuquerque, New Mexico. We interviewed the DOE
              Headquarters OTS liaison, as well as OTS officials at
              Albuquerque, including the individuals responsible for conducting
              liaison with State, Tribal, and local officials. We also interviewed
              representatives from the following State law enforcement agencies:
              Arizona Department of Public Safety; Arkansas Highway Patrol;
              Colorado Highway Patrol; Georgia State Patrol; Nebraska State
              Police; and Washington State Patrol. These individuals
              represented a sample of State representatives that we selected from
              a list of points of contact provided to us by OTS. We also
              discussed OTS liaison activities with a representative of the
              Western Governors’ Association. We reviewed pertinent
              Department and OTS directives and guidance regarding the
              transportation of special nuclear materials, as well as
              documentation concerning OTS liaison activities, including,
              among others things, recent in-service training and joint training
              exercises.

              This inspection was conducted in accordance with the Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency.




Page 6                                               Scope and Methodology
                                                                    IG Report No. INS O-01-02

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
    Friendly and cost effective as possible. Therefore, this report will be available
        Electronically through the Internet at the following alternative address:


          U.S. Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
